<html>
<title> - VOTING REPRESENTATION IN CONGRESS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                   VOTING REPRESENTATION IN CONGRESS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2002

                               __________

                           Serial No. 107-177

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
CHRISTOPHER SHAYS, Connecticut       DIANE E. WATSON, California
                                     STEPHEN F. LYNCH, Massachusetts

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                      Heea Vazirani-Fales, Counsel
               Matthew Batt, Legislative Assistant/Clerk
          Cherly Williams, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2002....................................     1
Statement of:
    Williams, Anthony, Mayor, District of Columbia government; 
      Linda Cropp, chairwoman, Council of the District of 
      Columbia; Ray Browne, Shadow Representative, District of 
      Columbia; Betsy Werronen, Chair, District of Columbia 
      Republican Party; Robert Peck, president, Greater 
      Washington Board of Trade; Walter Smith, executive 
      director, Appleseed Center; and Eugene Boyd, Analyst, 
      American National Government, Congressional Research 
      Service....................................................    23
Letters, statements, etc., submitted for the record by:
    Boyd, Eugene, Analyst, American National Government, 
      Congressional Research Service, prepared statement of......    77
    Browne, Ray, Shadow Representative, District of Columbia:
        Prepared statement of....................................    45
        Proclamation.............................................    85
    Cropp, Linda, chairwoman, Council of the District of 
      Columbia, prepared statement of............................    37
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland:
        Prepared statement of....................................    15
        Prepared statement of District of Columbia Shadow Senator 
          Paul Strauss...........................................     2
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    20
    Peck, Robert, president, Greater Washington Board of Trade, 
      prepared statement of......................................    54
    Smith, Walter, executive director, Appleseed Center, prepared 
      statement of...............................................    61
    Werronen, Betsy, Chair, District of Columbia Republican 
      Party, prepared statement of...............................    50
    Williams, Anthony, Mayor, District of Columbia government, 
      prepared statement of......................................    26

 
                   VOTING REPRESENTATION IN CONGRESS

                              ----------                              


                         FRIDAY, JULY 19, 2002

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:13 p.m., in 
room 2154 Rayburn House Office Building, Hon. Constance A. 
Morella (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella, Norton, and Watson.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, counsel; Robert White, communications director; 
Matthew Batt, legislative assistant/clerk; Shalley Kim, staff 
assistant; Jean Gosa, assistant minority clerk; and Cheryl 
Williams, legislative assistant.
    Mrs. Morella. Good afternoon. The Subcommittee on the 
District of Columbia is called to order for the purpose of 
conducting our hearing on voting representation in Congress.
    I want to welcome all of you, the witnesses and interested 
parties, and Ms. Norton who is the representative for the 
District of Columbia, and our ranking member. And I think 
Representative Watson from California has planned to be here.
    Since we don't have votes this morning, this is what 
happens with this subcommittee. When there are no votes, then 
the ranking member and I carry on in absentia, and they get all 
of the information from the hearing.
    I certainly want to encourage opening statements and 
testimony to be presented within a 5-minute period, maybe even 
less. And, of course, people can summarize their testimony, and 
we include it all verbatim in the hearing record.
    And, without objection, we're going to hold the record open 
for 5 legislative days to receive any pertinent material or 
written testimony regarding the topic that we hear from 
interested parties. And so ordered.
    We have had testimony from the District of Columbia Shadow 
Senator, Paul Strauss, and, without objection, it will be 
included in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.001
    
    [GRAPHIC] [TIFF OMITTED] T5725.002
    
    [GRAPHIC] [TIFF OMITTED] T5725.003
    
    [GRAPHIC] [TIFF OMITTED] T5725.004
    
    [GRAPHIC] [TIFF OMITTED] T5725.005
    
    [GRAPHIC] [TIFF OMITTED] T5725.006
    
    [GRAPHIC] [TIFF OMITTED] T5725.007
    
    [GRAPHIC] [TIFF OMITTED] T5725.008
    
    [GRAPHIC] [TIFF OMITTED] T5725.009
    
    [GRAPHIC] [TIFF OMITTED] T5725.010
    
    [GRAPHIC] [TIFF OMITTED] T5725.011
    
    Mrs. Morella. Now for just some opening comments. It goes 
without saying that the United States is the world's premier 
representative democracy. The U.S. Constitution, forged 215 
years ago by some of the sharpest political minds who ever 
lived, remains today a model for the rest of the world in 
establishing a government of the people, by the people, and for 
the people.
    One of our framer's innovations was the creation of an 
entirely new entity, a Federal district to house the Nation's 
Capital and to give Congress exclusive control over that 
district.
    This was done for various reasons, chiefly to protect the 
new Capital from unfriendly domestic forces and to insulate it 
against the pressures of local political officials. In the late 
18th century, when less than 4 million people lived in the 
entire country and less than 30,000 souls lived in present-day 
Washington, DC, and there was a legitimate fear of violent 
opposition to a strong central government, these protections 
were certainly prudent. Now much has changed since 1787, 
however. America now stretches from coast to coast, with a 
population approximating 300 million.
    The post-World War II building boom completed Washington, 
DC's transformation from a sleepy village to a budding 
metropolis. That evolution continues as we now recognize 
Washington as a prosperous urban center with 570,000 residents, 
dozens of vibrant and distinct neighborhoods, and many schools, 
hospitals, museums, theaters, and historic attractions and, of 
course, still no voting representation in either house of 
Congress.
    The original reasons behind the Nation's Capital not having 
a vote in Congress are no longer valid. This lack of voting 
representation runs counter to everything America stands for: 
freedom, democracy, and a government that exists only through 
the consent of the governed. It is a historic injustice that I 
believe has to be corrected.
    To me it seems inevitable, inevitable that the citizens of 
the District of Columbia will some day, 1 day, have voting 
representation in Congress. Others may and do disagree. They 
believe the District already is represented in Congress by the 
535 Representatives and Senators who retain final authority 
over all aspects of District government. And having lived in 
this area for more than 40 years, having started out in the 
District of Columbia and having served several years on this 
subcommittee, I would submit that it is not nearly good enough 
for the people of Washington, DC. Congressional oversight is no 
substitute for voting rights.
    I want to pause here to commend the woman on my right, 
Congresswoman Eleanor Holmes Norton, and one of the gentleman 
sitting before us, Shadow Representative Ray Browne, as well as 
many, many others who have worked so diligently on this issue.
    I believe that you're taking the exact right path in this 
process, raising public awareness and educating the American 
people about the District's lack of voting representation, a 
lengthy but necessary first step.
    And if it is to be successful, the push for D.C. voting 
rights cannot come from inside the city alone. The District 
needs as many partners in this effort as possible, and that is 
why Mr. Browne has criss-crossed the country to press the 
District's case to various local officials, and that is why 
Congresswoman Norton's taxation-without-representation proposal 
was such a creative way to raise the profile of this issue.
    This hearing I hope will assist us in determining where do 
we go from here. The District of Columbia Subcommittee does not 
have jurisdiction over voting rights bills. That task falls to 
the House Judiciary Committee, but we as a subcommittee and 
myself personally have an acute interest in voting rights for 
the District of Columbia, as we do in all matters that shape 
the Federal-local relationship.
    I will remind the audience that this subcommittee has 
passed a bill, introduced by Congresswoman Norton and myself, 
to return local budget autonomy to the District of Columbia, 
which would give the city power over its own purse strings. 
Budget control, it seems clear to me, is another fundamental 
right.
    In 1978, both houses of Congress passed a proposed 
constitutional amendment to treat the District of Columbia as a 
State for the purposes of voting representation in both the 
House and the Senate. I had the privilege of serving in the 
Maryland General Assembly when the measure was considered 
there, and I'm proud to say that I voted in favor of the 
amendment which got through the Maryland assembly by just one 
vote in each house in 1980.
    Maryland, however, was one of just 16 States to approve the 
amendment before the 1985 deadline. Then as today, there was a 
serious question of whether D.C. voting representation required 
a constitutional amendment or whether it could be done through 
simple Federal legislation. In recent years, provocative legal 
arguments have been made in support of the legislative option. 
To simplify these arguments, use the language in Article I, 
section 8 of the Constitution, which gives Congress the power 
to, ``exercise exclusive legislation,'' over the Capital, as 
well as the fact that Congress can grant the District 
statehood, to conclude that Congress can exercise its 
legislative authority to give the District voting rights in 
Congress.
    However, elsewhere in Article I, the Constitution is 
explicit. ``The House of Representatives shall be composed of 
Members chosen,'' ellipsis, from the several States,'' And, 
``The Senate of the United States shall be composed of two 
Senators from each State.''
    It seems obvious that the District of Columbia is not a 
State, and thus Congress's legislative power would have no 
bearing on the District's voting representation in Congress. 
But I know that there are those who are here today who will 
argue, and argue forcefully, that this interpretation is 
incorrect or at least incomplete.
    We have a distinguished panel before us. I look forward to 
hearing their perspectives on this important matter.
    And I now would like to recognize the distinguished ranking 
member of this subcommittee, Congresswoman Eleanor Holmes 
Norton.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T5725.012

[GRAPHIC] [TIFF OMITTED] T5725.013

    Ms. Norton. Thank you, Madam Chair. I thank our Chair, 
Representative Connie Morella, for graciously agreeing to 
today's important hearing on H.R. 1193, the No Taxation Without 
Representation Act, to secure voting rights for the citizens of 
the District of Columbia.
    The District's efforts to secure full voting representation 
have gained important new momentum this year. This momentum is 
manifest in recent progress. This hearing follows on the heels 
of a Senate hearing marking the first voting rights hearing in 
both houses in a quarter of a century.
    The Senate hearings were led by the Chair of the Government 
Affairs Committee and chief Senate sponsor of the bill, Senator 
Joe Lieberman. Before the Senate hearing, Senate Majority 
Leader Tom Daschle, a cosponsor of the No Taxation Without 
Representation Act, met with D.C. elected officials and 
business leaders. Of particular significance, a new national 
D.C. Voting Rights Coalition, consisting of national and local 
organizations, has been formed and held the first citywide 
Voting Rights Lobby Day in the Senate in May.
    The Coalition is the first union of local and national 
organizations for D.C. voting rights. Among its member 
organizations are the almost 200-member Leadership Conference 
on Civil Rights, People for the American Way, Common Cause, 
D.C. Vote, and Stand Up for Democracy.
    The Lobby Day Coalition has been very effective, taking the 
issue to the national level, as well as stirring increasing 
enthusiasm for voting rights locally. Together these events in 
a single year mark more activism on D.C. voting rights than 
there has been since the statehood hearings in a vote almost a 
decade ago.
    In the House even before this hearing, there has been 
progress on H.R. 1193. Following its introduction, I was able, 
easily, to get 111 Democrats, more than half of the Democrats 
in the House, signed on as cosponsors as an incentive to 
residents to get the rest of the Democrats during Lobby Day.
    However, the Lobby Day Coalition preferred to concentrate 
lobbying and activity in the Senate this year because of 
Democratic support for the bill there. Today's witnesses, some 
of whom the public has not heard before, are in a unique 
position to describe the damage to the city, to city residents, 
and to city businesses when deprived of the representation in 
Congress that other American citizens have found indispensable.
    The District's elected officials live every day with 
truncated representation that makes it more difficult and more 
costly for them to handle local affairs and to resolve the many 
local problems that have Federal content. Their counterparts in 
every city and State have, minimally, two Senators and a 
Representative, comprising a congressional delegation that in 
and of itself significantly enhances their chances for relief 
and resources over the District, which lacks the vote in both 
Houses.
    The absence of D.C. voting representation is particularly 
reprehensible considering the unique intrusion compelled by the 
District of Columbia in insisting that the city's balanced 
budget and all its laws come to the Congress before becoming 
effective. The District's representative must then stand aside 
while every Member of the House and the Senate, except the 
District, gets to vote on the District's local budget and laws.
    Today, however, we will not only hear testimony concerning 
the direct effect of these disabilities on residents, among 
those also testifying will be witnesses who are not elected 
officials but are harmed as much as those for whom the public 
has heard most often in the past.
    We especially welcome Betsy Warrenton of the D.C. 
Republican Party who speaks for thousands of Republicans who 
live in the city and who no more appreciate the denial of 
representation than their fellow citizens who are Democrats.
    In addition, there may be some who aren't aware that our 
business community supports voting rights and is uniquely 
disabled by its denial. The Greater Washington Board of Trade 
has long supported voting rights. Its position has become 
outspoken under the leadership of the new President, Bob Peck. 
Mr. Peck was part of the delegation that recently visited 
Majority Leader Tom Daschle before the Senate hearing. John 
Derrick, the CEO of Pepco, one of the District's major 
employers, was also part of the delegation pressing for voting 
rights.
    Shadow Representative Ray Browne has a unique story that 
brings great honor to his diligence and his role as an elected 
D.C. official. The Council authorized the Shadow delegation 
when the District strategy was full statehood in order to 
mirror the actions of some States in sending a Shadow 
congressional delegation to Washington to lobby for statehood.
    I sponsored the new Columbia Admission Act, and in 1993 
persuaded the House leadership to allow me to take the matter 
to the floor, where we had a 2-day statehood debate followed by 
a vote which received a large majority of the Democrats and one 
Republican.
    However, a few months later, the District became insolvent. 
To recover its financial standing, city officials turned over 
the financial responsibility for its most costly State 
functions to the Federal Government. Although there is still 
strong support for statehood among many residents, the city 
cannot qualify to become a State under the Constitution until 
its revenues allow the District to again take fiscal 
responsibility for the same State functions other States carry.
    Today, most D.C. residents support voting rights, including 
many statehood advocates who see voting rights as an obtainable 
achievement on the way to statehood.
    In the face of obstacles that undermine the function of the 
statehood delegation, statehood Representative Ray Browne 
deserves enormous credit for making lemonade out of lemons and 
giving meaning to an office that was robbed of its function 
when statehood became impossible. Representative Browne has 
preferred not to profile himself, but to amass a record of 
achievement.
    Although his work is mostly unknown and therefore 
underappreciated by the public, I look forward to 
Representative Browne's testimony considering the unique 
effectiveness of his efforts that I hope others will follow.
    All of today's witnesses are important to the District's 
democracy goals. These and other new and diverse voices are 
essential if the city is to attain its full and equal rights. 
We are unlikely to achieve our rights unless the labor, 
business, local government, and nonprofit sectors join 
residents in vigorously and systematically pressing for the 
same cause.
    This unity of purpose is what the city is clearly achieving 
not only in this hearing but also in the many energetic 
strategies to achieve our rights now being used across the 
District.
    Today's witnesses are an important indication that voting 
rights for our citizens has united the people of the District 
of Columbia like no other cause or issue.
    I welcome today's witnesses for the contribution each of 
them is making to the achievement of our rights. Thank you, 
Madam Chair.
    Mrs. Morella. Thank you, Congresswoman Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T5725.014

[GRAPHIC] [TIFF OMITTED] T5725.015

[GRAPHIC] [TIFF OMITTED] T5725.016

    Mrs. Morella. I'm going to ask our panel to come forward: 
Mayor Anthony Williams, Mayor of the District of Columbia; the 
Honorable Linda Cropp, chairwoman of the Council of the 
District of Columbia; Honorable Ray Browne, Shadow 
Representative of the District of Columbia; Betsy Werronen, 
Chair of the District of Columbia Republican Party; Robert 
Peck, president of the Greater Washington Board of Trade; 
Walter Smith, executive director of the D.C. Appleseed Center; 
and Eugene Boyd, Analyst, the American National Government, 
Congressional Research Service.
    I also want to point out that in our audience is Adrian 
Fenty, who is the ward 4 council member. Welcome.
    I'm going to ask you if you could stand so I could 
administer the oath, which is the tradition of the full 
committee and all its subcommittees.
    If you will raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. Thank you. The record will indicate an 
affirmative response. And we'll start off with the mayor, who 
in another guise at another time just before this hearing was 
at the International Spy Museum and made a dramatic jump from a 
rooftop. If you'll believe that, you'll believe anything, but 
it really did look like it was the mayor and not an 
impersonator. The International Spy Museaum is an intriguing 
attraction in the District of Columbia that I think is going to 
lure a lot of tourists to the area.
    So we'll start off with you, Mayor Williams. Thank you.

  STATEMENTS OF MAYOR ANTHONY WILLIAMS, DISTRICT OF COLUMBIA 
GOVERNMENT; LINDA CROPP, CHAIRWOMAN, COUNCIL OF THE DISTRICT OF 
   COLUMBIA; RAY BROWNE, SHADOW REPRESENTATIVE, DISTRICT OF 
     COLUMBIA; BETSY WERRONEN, CHAIR, DISTRICT OF COLUMBIA 
 REPUBLICAN PARTY; ROBERT PECK, PRESIDENT, GREATER WASHINGTON 
  BOARD OF TRADE; WALTER SMITH, EXECUTIVE DIRECTOR, APPLESEED 
CENTER; AND EUGENE BOYD, ANALYST, AMERICAN NATIONAL GOVERNMENT, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mayor Williams. Madam Chair, thank you for your leadership 
in holding this hearing, and I also want to recognize the 
ranking member, our own Congresswoman and our own 
Representative here in Congress, Eleanor Holmes Norton, both of 
you for conducting this important hearing on voting rights in 
our city.
    As mayor of our city, I'm as pleased as both of you are in 
the diversity of the representation here. Not only are Council 
Chair--not only our Shadow Representative Ray Browne but our 
Republican Party Chair are here, our business leader Bob Peck 
is here, and others, all with a united consensus voice for 
voting representation for our city; because in fact full voting 
representation in Congress is a fundamental right held by 
District citizens, and the need for this right flies in the 
face of myths that I often hear and many of us often hear as we 
travel the country: You know, the myth that the Federal 
Government completely funds the D.C. government, so what is the 
problem? The myth that there are no real people living in 
Washington. I mean, that we're just some movie set or something 
where everyone is some Presidential appointee or Member of 
Congress, so what is the problem? The myth that Washington 
residents already have full voting rights and complete self-
government. The myth that Washington residents all have a 
second address, and so what is the problem?
    All these are myths. They need to be rebutted because in 
fact, as you well know, we're a city of real, living, 
breathing, people. We're Americans as everyone else. We pay 
taxes as everyone else. We fight in wars as everyone else, and 
we are entitled to that most fundamental of American rights 
that we fought a Revolution for: voting rights.
    The lack of voting rights is an economic issue in our city. 
While Congress has the power to impose restrictions on the city 
and limit our ability to tax, we will never have a level 
economic playing field with the status quo. More than 50 
percent of our land cannot be taxed. Income earned in the city 
commutes and is exported to Maryland and Virginia every day. 
State functions such as road construction, Motor Vehicle 
Administration and special education must be funded not on a 
State's but on a city's constrained tax base.
    How can we continue to grow and be fiscally responsible 
when the city leaders have no authority over their own finances 
and no representation to negotiate with congressional Members? 
If the District had full voting rights, our Representatives 
could work toward greater parity for District residents on 
these and other issues, and it would be good for the region, 
for the District, to be functioning more effectively and 
efficiently on an even playing field.
    The lack of voting rights is a matter of justice in our 
city. The inability of residents to vote for voting 
Representatives and Senators in Congress violates their rights 
to equal protection and to a Republican form of government.
    And in the court case of the full voting rights, Alexander 
v. Dailey, the Court did not determine that District citizens 
should not have voting rights. It determined that the Court's 
lack of power under the U.S. Constitution to require Congress 
to grant such rights.
    Congress has the opportunity and the power to correct this 
injustice by acting now to guarantee justice by granting the 
citizens of the District this fundamental right.
    And, last and most importantly, the lack of voting rights 
is a civil rights violation here in our Nation's Capital. 
African Americans and women and others have fought for and died 
for the right to vote. Yet here in the Capital of the world, 
the Capital of democracy, while democracy reigns supreme across 
the world and free markets thrive, here in our Nation's 
Capital, it's one of the largest blocks of disenfranchised 
voters in the world.
    District residents are fighting for freedom right now, and 
we right now pay more than $2 billion a year in Federal taxes. 
As the world's leading and paramount democracy, it is 
unacceptable for our country not to grant voting rights to the 
residents of our Capital.
    Now, in May, we had the privilege of testifying before the 
U.S. Senate Committee on Governmental Affairs on our voting 
rights issue. The time has come to recognize the contribution 
our residents make as a society, and to acknowledge a democracy 
for all as a concept that includes the District of Columbia. 
We've been disenfranchised for almost a few hundred years. I 
don't believe the framers of our democracy intended for this to 
happen. This country was founded on principles, not on 
legalistic forms. It was founded on principles of fair and 
equitable treatment for all people.
    Our citizens, including District citizens, fight in wars to 
protect these freedoms. The District shares this 
responsibility, and sometimes burden, because it is a privilege 
in our free society.
    The District residents should have a voice in the laws that 
we live by, and that can only be done with full voting 
representation.
    The members of this committee as well as other Members of 
Congress have the unique opportunity to see that the District 
is an attractive place to live, an historic place to visit, and 
an international center. How can you live, work, and enjoy this 
city without wondering why the District residents are not 
represented as the constituents Members serve at home?
    I implore this committee to lead the charge in ensuring 
that residents of the District are no longer disenfranchised 
and that full voting representation in both the House and the 
Senate is provided. I ask you to pass the No Taxation Without 
Representation Act now.
    And I thank you for this opportunity to be heard, and I 
remain here to answer any questions you may have, and this 
testimony in its full length has been submitted for the record. 
Thank you, Madam Chair.
    Mrs. Morella. Thank you, Mayor Williams and it will be 
included in its entirety in the record. Thank you for being 
here.
    [The prepared statement of Mayor Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.017
    
    [GRAPHIC] [TIFF OMITTED] T5725.018
    
    [GRAPHIC] [TIFF OMITTED] T5725.019
    
    [GRAPHIC] [TIFF OMITTED] T5725.020
    
    [GRAPHIC] [TIFF OMITTED] T5725.021
    
    [GRAPHIC] [TIFF OMITTED] T5725.022
    
    [GRAPHIC] [TIFF OMITTED] T5725.023
    
    [GRAPHIC] [TIFF OMITTED] T5725.024
    
    [GRAPHIC] [TIFF OMITTED] T5725.025
    
    Mrs. Morella. I'm pleased to recognize Chairwoman Linda 
Cropp.
    Ms. Cropp. Thank you very much, Madam Chair, and to our 
ranking member, Congresswoman Norton, and other Members who may 
come in, good afternoon.
    Let me begin by thanking you, Madam Chair, for holding this 
public hearing on the denial of voting representation in 
Congress for the 600,000 American citizens who live in the 
District of Columbia. This is the first hearing by this 
subcommittee on the District's voting rights in a long time, so 
we very much appreciate this opportunity to urge you and your 
colleagues to use the power that you have to bring democracy to 
the Nation's Capital.
    Attached to my testimony is a resolution and a report 
adopted unanimously by the D.C. Council this past May 
supporting the No Taxation Without Representation Act that has 
been introduced by Congresswoman Norton in the House, and by 
Senators Lieberman and Feingold in the Senate. I'm joined today 
by Council Member Adrian Fenty, who represents ward 4.
    The Council's findings in this resolution essentially 
mirror the findings contained in the No Taxation Without 
Representation Act which I would like to highlight here.
    Madam Chair, for far too long, the residents of the 
District of Columbia have been invited to the dinner table, but 
have not been allowed to eat. District residents are hungry for 
congressional voting rights and District residents are starving 
for democracy.
    As you know, the U.S. citizens residing in Washington, DC, 
have no voting representation in the House and no elected voice 
in the Senate. This was not always the case. For approximately 
10 years after ratification of the U.S. Constitution and the 
selection of the Federal district, residents of the District of 
Columbia were allowed to vote for Members of Congress. In 1800 
Congress voted to end this practice, and thereby 
disenfranchised District residents. Throughout the past two 
centuries, there have been various efforts to restore the 
franchise.
    There are many reasons for voting rights and why it should 
be restored, but each evolves from a single principle: The 
right to vote is a fundamental principle of our democracy. 
Americans throughout the Nation agree, or would agree if they 
knew. A survey conducted in October 1999 found that 72 percent 
of the respondents supported full voting rights in the House 
and the Senate for District residents. The same poll showed 
high levels of support across party lines. Polling conducted a 
month later found that 55 percent of college graduates who were 
registered to vote were unaware that District citizens do not 
have congressional voting representation.
    You have heard these facts before, but until there is a 
remedy to the fundamental injustice of our subordinate status, 
they must be reiterated. The residents of the District of 
Columbia are the only Americans who pay Federal income tax but 
are denied voting representation in the House and the Senate.
    The District of Columbia is second per capita in income 
taxes paid to the Federal Government. The District is a source 
to over $2 billion in Federal taxes each year, an amount per 
capita greater--greater than 49 other States. Yet we have no 
say in Congress in how these tax dollars are to be spent.
    More District citizens have died in wars protecting the 
Nation than have the citizens of 20 other States. Congress has 
the exclusive right to declare war, and, again, we have no say 
in the decision when our citizens are going to fight in these 
wars.
    The impeachment proceedings in Congress a few years ago 
again highlighted the glaring anomaly of our lack of vote on 
the issue of removing from office the President of the United 
States whom we had a vote to elect.
    The United States is the only democracy in the world in 
which the residents of the Capital city are denied 
representation in the national legislature equal to that 
enjoyed by their fellow citizens.
    The denial of voting representation in Congress locks 
District residents not only out of our national legislature but 
also out of what is in a structural sense our State 
legislature, a legislature that has extraordinary approval over 
all of the District's local legislation and all of the 
districts locally raise dollars.
    The denial of District citizens to the right of 
congressional voting representation is the last unbreached 
frontier of civil and human rights in America. As the United 
States rightly tries to be a model and defender of democracy 
around the world, we implore you to find a remedy to remove 
this inexcusable hypocrisy of democracy denied in our Nation's 
Capital. We have tried in the past, and without success thus 
far, to obtain congressional voting rights through a 
constitutional amendment, through a statehood bill, and through 
litigation. The Supreme Court, while sympathetic, has 
essentially stated that it is the Congress where the remedy to 
this problem must be resolved.
    We ask this subcommittee to take action this year to remedy 
our lack of voting representation in Congress. We also request 
that you take favorable action immediately on legislative and 
budget autonomy for the District of Columbia and on 
Congresswoman Norton's Fair Federal Compensation Act of 2002.
    Thank you again, Madam Chair, for this opportunity to 
testify before the subcommittee today. We Americans who live in 
the seat of democracy want to be served a plate at the national 
dinner table and, finally, be able to join our fellow citizens 
in enjoying the full fruits of this democracy. As always, I 
look forward to working with you and your colleagues to ensure 
a brighter tomorrow for the Nation's Capital and for all who 
live, work, and visit here. Thank you.
    Mrs. Morella. Thank you, Chairwoman Cropp.
    [The prepared statement of Ms. Cropp follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.026
    
    [GRAPHIC] [TIFF OMITTED] T5725.027
    
    [GRAPHIC] [TIFF OMITTED] T5725.028
    
    [GRAPHIC] [TIFF OMITTED] T5725.029
    
    [GRAPHIC] [TIFF OMITTED] T5725.030
    
    [GRAPHIC] [TIFF OMITTED] T5725.031
    
    Mrs. Morella. And I'm now pleased to recognize the 
Honorable Ray Browne.
    Mr. Browne. Good afternoon, Madam Chair.
    Ms. Norton, I'm here today to voice my support for the No 
Taxation Without Representation Act of 2001.
    Let me start by being very candid. There are those who are 
cynical about the process we engage in today. Indeed, there are 
those in my own city that are skeptical about the will and the 
ability of Congress to remedy the injustice we suffer. I'm not 
among them. I believe that there are politicians who genuinely 
care about this issue. I believe that members of this committee 
are genuinely interested in the future of the District of 
Columbia.
    However, I believe that our view of voting rights for this 
city is distorted because we are so close to the problem and 
we've looked at it for so long.
    My message today is to peel off the arguments, layers of 
arguments that have covered over the heart of the question of 
voting representation for the District. I want to revisit the 
issue with you so that we can think about it as a fresh problem 
to solve, not as one more battle in an age-old war.
    We need fresh eyes today. And so today I bring you a 
perspective of a neglected participant in this debate, your 
constituents, the American people. As an advocate for voting 
rights for my city, I've had the opportunity to travel the 
country seeking support for us from citizens, faith leaders, 
labor groups, media representatives, and elected officials.
    To date, I've visited with elected officials in 
Philadelphia, Boston, Chicago, Cleveland, Atlanta, Baltimore, 
Los Angeles, Illinois, New Orleans, Detroit, San Francisco, and 
Alaska. These officials offered lucid, cogent, and persuasive 
testimony in favor of full representation for the District. 
They were consistent in their belief that those who willingly 
bear all of the responsibilities of citizenship deserve to 
enjoy democracy's great privileges.
    Allow me to share with you just a few of the views as 
expressed in formal resolutions, proclamations, and letters of 
support I am submitting for the record.
    By proclamation, the City Council in Philadelphia voiced 
their support for the citizens of the District of Columbia and 
for the principle that all American citizens shall elect and be 
represented by voting representatives in the national 
legislature. That resolution was introduced and supported by 
the Republican minority Chair of the City Council, Brian 
O'Neil.
    In Chicago, the City Council stated that one half million 
citizens of the District of Columbia are disenfranchised and 
unique, in that they lack voting representation in the U.S. 
Congress, while proudly and willingly shouldering the full 
responsibilities of U.S. citizenship.
    The San Francisco Board of Supervisors noted that the 
District of Columbia is treated as a State in nearly 500 
Federal laws, and urged the U.S. Congress to recognize the 
District of Columbia's constitutional right to basic democracy.
    The mayor of New Orleans said this disenfranchisement of 
the citizens in the Nation's Capital is contrary to the spirit 
of liberty, and indisputably in violation of the values on 
which the United States was founded.
    Governor Tony Knowles of Alaska writes: In the years before 
1959, many Alaskans held views that undoubtedly parallel those 
of the current residents of the District of Columbia concerning 
the obligations of citizenship and proper representation in 
Congress. Like District of Columbia residents, Alaskans paid 
taxes, served their country in time of war, and longed for a 
voice in national government.
    We long for a voice in national government.
    These are the voices of the American people, clear and 
firm, voices absent of partisan political considerations, free 
of small technical disputes as to the intentions of the framers 
of the Constitution. They are the voices of the people you 
represent, and they ring true.
    The American people who do not devote their time to this 
question have much to teach those of us who do. The old 
arguments that burden us are no less powerful because of their 
age. It is a question of principle as well as practicality. It 
is injustice of the highest order when a Nation born in the 
battle cry of ``No taxation without representation'' should 200 
years later still be taxing but not representing the citizens 
of its own Capital.
    Violations of principle have practical fallout. As our 
Mayor noted, this city will never achieve all it can without 
self-government. We can't solve our problems without the power 
to do so ourselves. We won't send our children to the public 
schools of our dreams until we truly control our public 
schools. We won't feel safe on our streets until those who know 
them best determine the strategies for our protection.
    We won't see affordable housing until the District is 
represented by folks from Cleveland Park, not Cleveland, Ohio; 
by folks from east of the river, not west of the Mississippi.
    With all due respect, I urge the committee to consider this 
matter as the Americans I have visited with did, without 
partisan political considerations. Step away from this small 
hill and see America. Be men and women of vision, unbound by 
ancient history. I urge you to follow the people of America. 
There exists no better guide. Thank you.
    Mrs. Morella. Thank you, Shadow Representative Browne.
    [The prepared statement of Mr. Browne follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.032
    
    [GRAPHIC] [TIFF OMITTED] T5725.033
    
    [GRAPHIC] [TIFF OMITTED] T5725.034
    
    [GRAPHIC] [TIFF OMITTED] T5725.035
    
    Mrs. Morella. I'm pleased to recognize Betsy Werronen who 
chairs the District of Columbia Republican Party. Ms. Werronen, 
I wanted to mention also that the suggestion to invite you came 
from the ranking member, Congresswoman Norton.
    Ms. Werronen. Thank you, Madam Chair. I congratulate you, 
Madam Chair, and our Representative from the District for 
holding this historic hearing, and I'm honored to be a part of 
it.
    I thank our Representative from the District, especially 
for the strong leadership that she has shown and the strong 
voice that she has exhibited on this issue; and, Madam 
Chairwoman, we thank you for your brilliant leadership of this 
committee and for the fairness that you have shown on all 
issues of importance to residents of the District of Columbia.
    Today I'd like to focus on the principle of having some 
form of voting representation in Congress and not all of the 
details of achieving that representation. I'd like to make 
three points:
    First, residents of the District of Columbia are citizens 
of the United States. We are entitled under the Constitution to 
the same rights and responsibilities as all other U.S. 
citizens. We accept our responsibilities, including the 
obligation to serve in the defense of our country and the 
obligation to pay taxes, just like all other citizens. We must 
have voting representation in Congress, just like all other 
citizens. There is simply no defense for not granting this 
right. What precise form voting representation should take and 
by what means should it be achieved are questions that we 
believe can be answered by the Congress.
    Second, we recognize that there are several options for 
granting citizens of the District the voting representation in 
Congress that they are entitled to. These options range from a 
voting Member in the House, voting Members in the Senate, to 
full statehood. Because the District of Columbia is unique, set 
up by our Founding Fathers as a Federal city, Congress must 
show creativity and practicality in implementing voting 
representation for the District of Columbia. As an important 
first step, we support fully the option of full voting rights 
for our representative in the House of Representatives. This is 
the most practical and achievable way to grant our citizens 
their rights and to honor the principles and spirit of the 
Constitution, and this is something that could be done now.
    Third, we believe that the argument that there should be no 
taxation of the citizens of the District without representation 
has merit. However, we believe that the arguments for voting 
rights are compelling enough on their own. We urge this 
committee to aggressively pursue voting representation for the 
District of Columbia. We offer our full support to achieve this 
important goal.
    I'd like to submit to you my full statement for the record, 
and I'd also like to submit in addition to my testimony a 
history of Republican involvement in D.C. voting rights. It is 
a progressive record which embraces the best principles of the 
party and has been compiled by D.C. resident Nelson 
Rimmensnyder, who is presently a cadet at West Point. Thank 
you.
    Mrs. Morella. Without objection, so ordered, that will be 
included in the record. And I thank you, Ms. Werronen.
    [The prepared statement of Ms. Werronen follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.036
    
    [GRAPHIC] [TIFF OMITTED] T5725.037
    
    Mrs. Morella. And now I'm pleased to recognize the 
president of the Greater Washington Board of Trade, Bob Peck.
    Mr. Peck. Thank you, Madam Chairwoman. Good afternoon, also 
to Delegate--or as I prefer to say--Representative Norton, and 
to the Subcommittee on the District of Columbia as a whole. I 
am, as you said, Robert Peck, President of the Greater 
Washington Board of Trade.
    The Board of Trade was founded in 1889 as the Washington 
Board of Trade, and in part those business leaders who came 
together at the Ebbitt Grill were talking about the fact that 
the District couldn't get its fair share of Federal funding to 
get the streets paved or other Federal public works 
appropriated in the District of Columbia. And it's partly that 
issue that the Greater Washington Board of Trade, now 
representing the region as a whole, still brings forward to you 
as a reason, in part, for the need for the District to have a 
vote in the Congress.
    I'd like to thank you for asking me to speak with you 
today. I couldn't go back and figure out how many times the 
Board of Trade in its history has testified before Congress in 
favor of a vote for the District, but I can tell you that the 
Board of Trade's support for full voting rights in the Congress 
for the District goes back to 1917. So we have a long history. 
In 1955, the Board of Trade endorsed what became the 23rd 
amendment to the Constitution that allowed D.C. residents to 
vote in Presidential elections.
    In 1972, the Board of Trade endorsed the adoption of the 
Home Rule Charter. And here I have to stop to say, in the 
interest of full disclosure, that I think when people are 
surprised that the Board of Trade supports voting rights for 
the District, it's because there is an unfortunately accurate 
memory that the Board of Trade initially opposed home rule for 
the District in the late 1960's. But the board then changed its 
opinion to become a very strong advocate for home rule. And 
since home rule--since its endorsement of home rule in 1972, 
the Board of Trade has consistently supported expansions of 
home rule, supported the D.C. voting rights amendment in 1978, 
and in 1992, in fact, supported the efforts to get 
Congresswoman Norton the vote, at least in the House's 
Committee of the Whole.
    The Board of Trade continues to support full voting 
representation for D.C. residents, and our policy position is 
partly based not only on fundamental fairness but on the 
pragmatic consideration that Members of Congress from other 
areas of the country have other and more complex and more 
parochial, in their own interest, things to think about on any 
given day than governing the District of Columbia or getting 
the District of Columbia its fair due.
    I have to say I think there is an inside baseball reason 
for our support for this, too. As an organization that looks at 
the region as a whole, we discover that having strong 
Representatives and Senators from Maryland and Virginia gives 
our region considerable clout in the Congress. I have to say, 
having a few more Members with votes from the District of 
Columbia would stand the entire region in good stead.
    We recognize that there needs to be a special relationship 
between the District of Columbia and the Federal Government. We 
need to accommodate in the District the needs of the Federal 
Government as the seat of our national government and a beacon 
for the world, and there is a reciprocal need for the Federal 
Government to recognize its obligation to help the District of 
Columbia pay for those obligations it takes on as the Nation's 
Capital.
    Citizens of the District have no opportunity to elect or 
dismiss those who ultimately make a number of critical 
decisions for them, including ratification of every piece of 
legislation in the Council of the District and the District's 
budget. And I emphasize, because so many people seem not to 
know and it violates a fundamental principle of business 
management, that the District, which raises almost all of its 
own revenues, has to go to the Congress for the permission to 
spend them. In business, you try to keep those who are managing 
the budgets in a singular accounting relationship. I think 
we've learned that recently again.
    Our members come from throughout the region, I want to 
emphasize--Maryland and Virginia as well as the District--and 
as a matter of fairness, believe that the citizens of the 
District of Columbia deserve the right to vote.
    Can I say just one personal note? I am a District resident, 
have been for almost 30 years. But I grew up in Montgomery 
County where my first political experiences as a kid were 
handing out flyers in congressional and Senate races. And I 
remember seeing in high school our voting Representative in 
Congress and at least one of our Senators address our civics 
class and our commencement.
    Unfortunately, students in the District of Columbia don't 
get to see that. They do see a Representative in Congress whose 
accomplishments without a vote are awfully impressive, but they 
ought to be able to hear from and work for a voting 
Representative and voting Senators as well.
    Thank you for this opportunity, and I'll be happy to answer 
questions.
    Mrs. Morella. Thank you, Mr. Peck. I won't ask you who 
those Representatives were. It will probably make me feel very 
old.
    [The prepared statement of Mr. Peck follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.038
    
    [GRAPHIC] [TIFF OMITTED] T5725.039
    
    [GRAPHIC] [TIFF OMITTED] T5725.040
    
    [GRAPHIC] [TIFF OMITTED] T5725.041
    
    [GRAPHIC] [TIFF OMITTED] T5725.042
    
    Mrs. Morella. Mr. Smith, I'm pleased to recognize you, sir, 
as executive director of the D.C. Appleseed Center.
    Mr. Smith. Thank you very much. Thank you, Madam Chair. 
Thank you for inviting me and for holding this hearing. And I 
too would like to thank Congresswoman Norton, especially to 
thank her for the leadership she has shown on this issue and 
for the role that she has played in doing one of the things she 
referred to a minute ago, and that is helping to bring together 
all of the segments of the District of Columbia community that 
need to be part of this effort in order to achieve the goal we 
all support.
    I come from one of the parts of the community she 
mentioned. That is the nonprofit community. D.C. Appleseed is a 
nonprofit. It's an independent nonpartisan group that cares 
only about improving the conditions in the District of Columbia 
for all of its citizens and protecting the public interest.
    Earlier, though, I wore a different hat. I was with the 
Office of the Corporation Council and was one of the counsels 
on the lawsuit that the Mayor mentioned a minute ago, Alexander 
v. Dailey. So although D.C. Appleseed is new to this issue, 
I've been personally part of the issue for some time, and care 
passionately about it, which is why I want to say again how 
much I welcome the leadership the Congresswoman has shown on 
this issue and to thank you for bringing these people to the 
table today to talk about the issue.
    I don't want to repeat the points others have made, so I 
just want to make three points to you.
    First of all it seems to me, as is illustrated by the 
things that have been said here already today, there is no 
principled basis, none, for continuing to deny the citizens of 
our Nation's Capital the most basic and precious right of this 
democracy. And it also seems to me there is no better time for 
the Congress to recognize that fact than today, when we are 
fighting for democracy abroad. We should at the same time be 
protecting democracy here at home. That's the first and most 
important point.
    The second point is that Appleseed fully supports the 
vehicle that Congresswoman Norton has developed for advancing 
that cause. You have before you a bill that she referred to a 
moment ago that recognizes that the citizens of the District 
are entitled to full voting representation in the Congress, and 
because there is no principled response to that contention, it 
seems to me there should be no question but that bill should be 
passed and passed now.
    My third point leaves for me the only remaining question 
that seems to me that legitimately can be asked about this 
issue, and that is whether or not Congress has the authority, 
as you mentioned a moment ago, Congresswoman--does Congress 
have the authority to pass this bill through simple 
legislation, or is a constitutional amendment required? We 
believe, as Congresswoman Norton believes, that it can be 
passed by simple legislation. And as you know, we've attached 
to my testimony a memorandum setting out the reasons for that, 
but it's easy to state what that reason is.
    The Congress has the authority under the District clause, 
which you referred to a moment ago, to treat the citizens of 
the District of Columbia as if they were citizens of States, 
and all of the key precedents that have been decided by the 
courts, including Alexander against Dailey, which the Mayor 
referred to, confirm that proposition. And as Article V of our 
Constitution says, you shouldn't be passing constitutional 
amendments unless it is necessary to do so, and if it is not 
necessary to change the Constitution to deliver this most basic 
right to D.C. citizens, you should do it by simple legislation.
    So for me, in summary, it's all an easy proposition we're 
talking about today. It's the right thing to do. You have the 
right bill before you to do it, and you have the authority to 
do it. And we would therefore urge you to do it promptly. Thank 
you very much.
    Mrs. Morella. Thank you, Mr. Smith. You speak with great 
commitment and passion.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.043
    
    [GRAPHIC] [TIFF OMITTED] T5725.044
    
    [GRAPHIC] [TIFF OMITTED] T5725.045
    
    [GRAPHIC] [TIFF OMITTED] T5725.046
    
    [GRAPHIC] [TIFF OMITTED] T5725.047
    
    [GRAPHIC] [TIFF OMITTED] T5725.048
    
    [GRAPHIC] [TIFF OMITTED] T5725.049
    
    [GRAPHIC] [TIFF OMITTED] T5725.050
    
    [GRAPHIC] [TIFF OMITTED] T5725.051
    
    [GRAPHIC] [TIFF OMITTED] T5725.052
    
    [GRAPHIC] [TIFF OMITTED] T5725.053
    
    [GRAPHIC] [TIFF OMITTED] T5725.054
    
    [GRAPHIC] [TIFF OMITTED] T5725.055
    
    [GRAPHIC] [TIFF OMITTED] T5725.056
    
    Mrs. Morella. Mr. Eugene Boyd, who is an Analyst with 
regard to American National Government at CRS.
    Mr. Boyd. Thank you, Madam Chair, Ms. Norton. My testimony 
will draw from research undertaken pursuant to the conference 
report accompanying the District of Columbia Appropriations Act 
of 2002 which directed the Congressional Research Service to 
prepare a comparative report on the District of Columbia and 10 
other national capitals. In accordance with CRS's statutory 
mandate to provide objective and nonpartisan research and 
analysis of issues before Congress, my testimony will focus on 
the factual findings presented in the report, a copy of which I 
would like to submit for the record as well as this testimony.
    The report, which focused upon the rights of citizens, 
management and oversight of the National Capital by the 
national government and financial support of the National 
Capital by the national government, presents information on 
Washington, DC, and the following national capitals: Berlin, 
Bern, Ottawa, Brasilia, Canberra, Caracas, Paris, Rome, London 
and Mexico City.
    Of the 11 cities included in the report, 3 are capitals of 
unitary systems of government, essential governments; 8 are 
capitals of countries with Federal systems of government; 5 of 
the 8 capitals that are Federal capitals are located in Federal 
districts or territories; and 3 Federal capitals function both 
as a city and State, or a city within a province.
    My testimony today will focus on the rights of citizens 
specifically. I will address three questions relating to the 
election of local lawmakers, home rule, and voting 
representation in the national Legislatures.
    The first of the three questions, do the citizens of the 
national capital elect their local executive and legislative 
leadership? Almost all of the capitals in the study elected 
their local political leadership. Among the five capitals that 
are Federal districts, the rights of citizens of the National 
Capital to elect their own local political leadership is a 
fairly new development, dating back to 1974 when the Congress 
of the United States granted the citizens of the District of 
Columbia the right to elect the Mayor and the City Council, and 
most recently, in 1996, when constitutional reform in Mexico 
granted the citizens of Mexico City the right to elect the 
mayor of the Federal direct. Before 1996, the mayor--there was 
a federally appointed chancellor or regent.
    The second question: Does the local government of the 
National Capital have autonomy in managing its affairs or may 
it be overruled by a higher level of government? Eight National 
Capitals have constitutionally or legislate--I'm sorry--eight 
national governments have constitutionally or legislatively 
mandated oversight of the National Capital. Only Switzerland, 
Germany, and Canada's national governments do not. And in these 
capital cities, which are city-States or cities within States, 
the primary source of physical assistance in legislative 
authority is the State and not the Federal Government. In four 
countries, decisions made by the local governments of Canberra, 
Caracas, the District of Columbia, and Mexico City can be 
overruled or vetoed. Only in the District of Columbia and 
Mexico City must the budgets of the local governments be 
approved by the national government. And in Mexico City, the 
mayor may be impeached, removed, and replaced by the national 
Senate.
    The third question on voting representation in the national 
legislature, the report notes that only in Washington, DC, do 
citizens not have voting representation in the national 
legislature. In general, representation of the National Capital 
in the national legislature is based on population in the lower 
house, with a fixed number of Members in the Upper Chamber, or 
Senate, who may be appointed or elected. There are, however, 
numerous variations. For instance, Canberra residents elect two 
Senators to the national legislature, who serve 3 years instead 
of the customary 6-year term served by Senators from Australian 
States, and they elect two Members to the House, while States 
elect 12 Senators to the Senate, and no State has fewer than 
five House Members.
    Another example is Caracas. Citizens elect members to a 
unicameral national assembly. Members are elected by popular 
vote to serve 5-year terms, and 3 of the 165 seats are set 
aside for representatives of the indigenous people of 
Venezuela.
    This concludes my remarks and I'll be happy to respond to 
any questions that you may have.
    Mrs. Morella. I want to thank you very much for your 
testimony.
    [The prepared statement of Mr. Boyd follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.057
    
    [GRAPHIC] [TIFF OMITTED] T5725.058
    
    [GRAPHIC] [TIFF OMITTED] T5725.059
    
    Mrs. Morella. I'll now start the questioning and try to 
keep each round to 5 minutes for each of us. I'll start off, 
then, with Mayor Williams and Council Chair Cropp; and to if 
anyone else wants to comment on it.
    When the citizens of the District of Columbia do get voting 
rights do you think there should still be a role for 
congressional oversight, particularly given the provisions of 
Article I, section 8, and how should that oversight be 
exercised? Article I, section 8.
    Mayor Williams. The Council Chair can speak, but for my 
part, I think I would distinguish--two things I would 
distinguish. And the last testifier spoke to the relationship 
of the national legislatures to national cabals, and Walter as 
well spoke to the relationship of National Capitals of Federal 
centers. All that is to say that I would distinguish between 
the Congress's oversight of the Federal center from oversight 
of the city. And I think as the no taxation without 
representation bill works its way through Congress, I think we 
should be mindful of that distinction, because it is an 
important distinction.
    There clearly should be a high degree of congressional 
oversight over the Federal center as opposed to the city of 
Washington, DC. As far as the city of Washington, DC, is 
concerned, I think that there clearly should be some oversight, 
but I think it ought to be on a post-audit basis. And I would 
use as an example the kind of oversight that we want to see in 
the future. An initial step toward that autonomy is the Budget 
Fiscal Integrity Act which would give the city budget autonomy 
and would provide Congress with a post-audit review of District 
budgets. I think that is the road down which we want to go.
    Mrs. Morella. So you think the concept in that piece of 
legislation which we've introduced gives the adequate oversight 
in autonomy.
    Mayor Williams. Right. I think it is a good precedent for 
the kind of oversight Congress should have, yes.
    Mrs. Morella. Thank you. Chairwoman Cropp.
    Ms. Cropp. Let me say I concur with most of what the Mayor 
said. I think it's very easy for us to establish a Federal 
enclave, and that Federal enclave would be the part in which 
the Federal Government would have jurisdiction. And then the 
other part of it should be done by the locally elected 
leadership. We raise our revenue. Most people are truly shocked 
with the fact that we raise our revenue, and that when you look 
at the dollars that the Federal Government even pays out to 
others' jurisdictions, many others get much more than we do in 
the District of Columbia.
    So that there's an opportunity to do that, and even without 
us having the--possibly our voting rights immediately, what we 
can have is that fiscal autonomy where it would be our hope and 
our desire that you move as quickly as possible on getting us 
voting rights. And it certainly can start with at least our 
Representative Eleanor Holmes Norton having the vote back that 
she did have at one point, and then move on to total voting 
rights; but, immediately, fiscal autonomy too for the city.
    Mrs. Morella. Mr. Peck, I think in your testimony, you 
indicated support for that measure. And I just wondered if you 
wanted to elaborate on that or indicate what expansions of the 
Home Rule Charter that the Board of Trade supports.
    Mr. Peck. I think as I said, but to make clear, the right 
of the District of Columbia to pass its own--to have a budget 
that is not subject to congressional review and to pass 
legislation which is also not subject to congressional review.
    And I want to make clear what I was trying to say before. 
The principle in business is that those who--if you're going to 
spend the money, you have to have been in the seat of the 
people who raised the money, so you don't just get to spend and 
direct other people's money. And I think it's one of the 
fundamental economic aspects of self rule, of democratic rule, 
that the people tax themselves and then get to direct how the 
money is spent. And here we have local citizens raising money, 
agreeing to tax themselves, and then being directed by--
potentially being directed by others how to spend it. It's not 
what we do in other local governments. I hope that clearly 
answers the question.
    Mrs. Morella. We look at you as a resource as we move 
along, too.
    Mr. Smith, do you believe that Congress could have granted 
District residents the right to elect electors to elect the 
President without going through the constitutional amendment 
process? Could Congress have granted the Presidential vote 
under its authority in that Article I, section 8 that I alluded 
to of the Constitution?
    Mr. Smith. Madam Chairwoman, we have not looked directly at 
that issue, and I'd like to think I'm a good enough lawyer not 
to give an off-the-cuff response to the question. But let me 
say this. The issue of the Presidential electors under the 
terms of the Constitution is different from the one we're 
talking about today because of the peculiar role of the 
electoral college. We don't have that when we're talking about 
merely establishing Congress's right to treat District citizens 
as if they were citizens of a State.
    Many people argued that at the time of the amendment that 
gave us the right to vote in the Presidential election, because 
of the peculiarity of the language in the Constitution 
regarding the role of the electoral college, it was important 
that be done. And in fact to use Article V's word, it was 
necessary that be done by constitutional amendment, but that 
the same argument is not available with regard to voting 
representation in the Congress.
    Mrs. Morella. You know, I'm curious if the right to vote 
could be given by legislation enacted in this Congress, would 
it not have the risk that subsequent Congresses could change 
it? I mean, is that something that should be considered?
    Mr. Smith. Others might want to speak to that. I think the 
answer to that is yes. As we tried to explain a bit in the 
memorandum that I mentioned a minute ago, at the time of the 
1978 constitutional amendment which, as you know, passed by 
two-thirds majorities in both houses, some people argued that 
the reason to pass a constitutional amendment was not because 
that was the only way to do it, but because that was the way to 
give it permanence. That was why some people supported it at 
that time.
    So theoretically, I suppose, if you were to pass simple 
legislation recognizing the rights of D.C. citizens to voting 
representation in the Congress, some later Congress might 
differ. But I would not expect that to happen. I would expect 
once voting representation is given, the Congress would not be 
in the business of later declaring, no, the citizens of the 
Nation's Capital are not entitled to the vote.
    Mrs. Morella. And if anyone wants to respond to that kind 
of question, I'm wondering also if you did it legislatively, 
there's always then the possibility that somebody will question 
it and bring it to court. Can you see that route occurring and 
then it might be considered not constitutional? If any of you 
would like to comment on it.
    Ms. Cropp. Just briefly, it seems as if one of the things 
that happened in the last trial, the Court said that it was up 
to Congress to make the decisions. So if that were the case, 
then the Court would be going back on what it had said itself.
    Mayor Williams. I would agree with that. I think the Court, 
in the parlance of lawyers, said it doesn't have standing 
because it's a political question. Well, if it's a political 
question, it implies that it's within the power of Congress to 
solve.
    Mr. Smith. Could I just add one other thought to that? I 
agree obviously with what the Mayor and Chairman Cropp has 
said. Another key point, though, I believe is if in fact a 
lawsuit were brought, at that time we wouldn't be plaintiffs in 
this suit as we were in Alexander against Dailey; and as 
Justice Jackson pointed out in the Tidewater case which is in 
our memorandum, the courts are directed to give great deference 
to Congress's own view of the scope of its authority under the 
District clause.
    And if Congress were to agree with the argument we're 
advancing here, which is you do have the authority to pass this 
legislation under the District clause, the courts will be 
directed to defer to your view about that.
    Mrs. Morella. I'm going to now have Congresswoman Norton 
ask her questions. But my concern also was, would it be a piece 
of legislation in the House and then a piece of legislation in 
the Senate separately, each dealing with its own body? Would it 
be one piece of legislation for both, that goes obviously 
through both houses, or does it matter? Well, think about it as 
we proceed.
    Congresswoman Norton, for your questioning.
    Ms. Norton. Well, I appreciate the Chair's thoughtful line 
of questioning. I should say that Mr. Smith deserves the 
commendation of the city for the extraordinary service that he 
rendered in the case of Alexander v. Dailey and, of course, 
this legislation comes directly out of the suggestion of the 
Court. Even though I think the issues raised about permanence 
are worthy issues, the coalition, the national and local 
coalition that has been working on voting rights, is going to 
meet in a summit of its own to decide how to proceed next year.
    The fact is, the Congress leaves the District in the 
position of deciding how to pursue its rights each year by 
virtue of the circumstances that the city sees before it, and 
of course the city saw before it this year a Republican House 
and a Republican Senate that did not support voting rights, and 
so our No Taxation Without Representation Act seemed 
appropriate for the time, especially since the Court had 
indicated that we might repair to the Congress for our rights.
    I should also mention that if the argument is that you 
could take back a voting right if you gave it, it should also 
be stated that it is the Congress that gives statehood, and 
that therefore Congress could repeal statehood as well. But you 
have to ask yourself if the Congress goes so far as to grant 
such a fundamental right, whether under any circumstances it 
would grant it back. And again, statehood, you have to do the 
same thing you're trying to do here. You've got to get the 
House and the Senate and the President to sign it.
    What I'd like to ask you, as simply a followup, do you know 
of any circumstance or an analogy where Congress has repealed 
the fundamental right once Congress itself gave that right?
    Mr. Smith. You're asking me?
    Ms. Norton. I'm asking you. I just wanted to establish 
that.
    Mr. Smith. I don't, Congresswoman.
    Ms. Norton. That is a worthy point that the coalition will 
be considering.
    Mr. Mayor, when you say post-audit with respect to District 
affairs, are you aware that's what the Congress does now? The 
Congress does--audits your bills after you pass them. The 
Congress audits your budget after you pass them. So I'm not 
sure I know what post-audit would mean.
    Mayor Williams. Doesn't the Fiscal Integrity Act call for 
the District to meet certain tests for budget autonomy in the 
Fiscal Integrity Act?
    Ms. Norton. Yeah, in the Fiscal Integrity Act.
    Mayor Williams. That is what I mean by post-audit. I'm just 
maybe being sloppy in my phrasing.
    Ms. Norton. You don't mean there should be special 
committees of the House and the Senate set up?
    Mayor Williams. No. I'm saying we meet certain tests, we 
should have autonomy that are in the Fiscal Integrity Act. If I 
could just state, that is really beyond my competence. It seems 
to me that if Congress granted the District the equivalent of 
statehood, I think that we have decided in this country that 
this union is insoluble, and I can't see how once you're 
granted those rights, you can then be seen as having those 
rights revoked. That's just my 2 cents.
    Ms. Norton. Thank you. Indeed, if we get a Congress that 
will fully respect home rule, I intend to seek the abolition of 
the District Committee where, if there were a Democratic House 
I would be Chair, and to seek the abolition of the D.C. 
Appropriations Committee, and to do so in the House as well as 
the Senate. It seems to me that 25 years after home rule, 
setting up a whole apparatus of staff to essentially look at 
what you've already done is a waste, not only for you but for 
the Congress of the United States as well.
    I'd like to ask Mr. Browne a question. What you have done, 
Mr. Browne, in going from State to State and city to city, is 
quite extraordinary, because it was more than, of course, the 
case of just sitting down and saying, you know, sign here on 
the dotted line. You had to convince the leaders of those 
legislatures that they should do so.
    In looking to build on what you have done, first let me ask 
whether you think--let me ask whether you think what you have 
done by visits so well could be done without individual visits, 
or would followup with two visits, so that these 11 States and 
cities that you manage to get--I don't think he's going to hear 
me, though, if----
    Ms. Cropp. No. He has an allergy, so I'm trying to make 
sure he hears you.
    Ms. Norton. Well, maybe I should speak a little louder. Is 
it easier to hear me now, Mr. Browne?
    Mr. Browne. Better.
    Ms. Norton. I'm sorry. Just ask me to speak up. I'm sorry. 
I didn't realize.
    Mr. Browne, you have painstakingly visited 11 cities and 
States. That is a lot of hard grunt work, particularly since 
what you had to do was not simply sit down and say, sign on the 
dotted line. You had to convince the leaders of these 
legislatures that there was an issue here that they should 
support; and, of course, what you have done is quite 
extraordinary.
    I would like your advice on how to build on what you have 
done. Is it necessary for visits to be made, personal visits to 
be made? Is there another way without visits or is there a way 
to get action from legislatures building on other contacts or 
even on visits? How can we multiply the work you have so 
effectively done on a one-on-one, case-by-case basis?
    Mr. Browne. I think that some of that is already under way, 
and certainly it needs to be done. While the support that we 
gathered is certainly broad and diverse, both in terms of its 
political nature and its geographic distribution, we would 
like, as you would, to have a larger body of support. I think 
that the work that the Mayor has done, both through the 
Conference of Mayors and through the legalities, is a good 
example of a way of broadening our outreach and our request for 
support that can come back from the country.
    Additionally, there are certainly opportunities in the 
faith community. I can tell you that we have had that discussed 
with people all the way from the Quakers to the Baptists. We're 
eager to talk to our new bishop in Washington. The faith 
community, in many instances, believes that the violation of 
voting rights for the citizens of the District of Columbia is, 
in fact, a violation of human rights and crosses some lines 
into other areas. There are a lot of opportunities for us to 
reach out through a national microphone to get this out.
    The last thing I would say is, as you know, because of your 
support and the mayors and in conjunction with that program, we 
have been visiting with the Governors and the staffs of the 
Governors. I am pleased to tell you that the very first 
proclamation in support of voting rights for the District of 
Columbia by a Governor was issued this week by the Governor of 
Hawaii. We don't have that for the record for you today, but we 
will submit it later.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5725.060
    
    Ms. Norton. I wonder, Ms. Cropp and Mayor Williams--Ms. 
Cropp, there's a relevant committee that could help 
Representative Browne carry out his work, multiply his work; 
and I am wondering from the Mayor whether there is a relevant 
staff member on the Mayor's staff that could help him carry out 
this work and multiply this work more quickly. I mean, these 
cities each have Senators and Representatives, and it would be 
very useful to us here in the House and the Senate, but I am 
not sure that making this a one-man operation, as Mr. Browne 
has been intent upon doing, if nobody else will do it--he has 
been there to do it. I am not sure that will get it done as 
fast as all of us would like to have it done, so could I ask 
you that?
    Ms. Cropp. Certainly. There is a committee on the Council 
chaired by Phil Mendelson who deals with voting rights and 
certainly that committee can interact with the work of Ray 
Browne.
    Ms. Norton. I would ask you to speak to Mr. Mendelson about 
setting up a meeting with Mr. Browne so that a strategy could 
be developed by the Council that would help Mr. Browne to do 
the work he is doing more quickly--that he is doing so 
effectively more quickly.
    Ms. Cropp. In addition to that, actually, I have since sent 
a letter of opening to Mr. Browne. I've given it to him as Jack 
Evans, the Chair Pro Tem of the Council, somewhat as an 
introductory letter as he has made his travels throughout the 
country in support----
    Ms. Norton. Yes, I am aware of that. In fact, I think he 
uses a letter from all three of us saying we hope you will 
cooperate on this matter. So that is very important, helping 
him to get in, to see that he is somebody who represents us 
all.
    Ms. Cropp. He represents us, that's correct.
    Mayor Williams. We--on my staff--Fonda Richardson on my 
staff handles intergovernmental relations, and in that--she 
comes from the National League of Cities with a strong 
background, and in that regard I've worked as a member of the 
board of directors of the National League of Cities. I'm a very 
strong member of that organization, and I'm now seeking a 
leadership role in that organization.
    I might add, it's a strongly bipartisan, nonpartisan 
organization. The National League of Cities amended the 
national municipal policy to include support for District 
representation. It passed a resolution for budget autonomy. 
This is a result of our efforts.
    Ray mentioned what the U.S. Conference of Mayors has just 
recently done as a result of our efforts. So what I see what 
we're doing is complementing and supporting Ray's efforts on a 
national front, and we want to expand and broaden that.
    I've had discussions with Governor Glendening about the 
District having--I should say United States--the District 
having observer status in the National Governors Association. 
Because, again, we paid millions of dollars in income taxes. 
We're exposed to all the State functions of other States, and 
we would want to see our voice heard there as well.
    Ms. Norton. That's very helpful. Yes.
    Ms. Cropp. If I may add, I will also be joining the 
speakers--conference of speakers of houses of each State around 
the country, and it's a plan that I plan on making a part of 
that conference as I become an active member.
    Ms. Norton. Madam Chair, I have other questions, but my 
time is up for this round.
    Mrs. Morella. I want to pick up on that whole concept in 
terms of what is being done nationally to promote the concept 
of the legislature enacting by statute the opportunity to vote 
in the House and the Senate. What is being done to promote the 
idea that if there were a constitutional amendment there could 
be ratification from a sufficient number of States. You 
mentioned the National Council of Mayors, and it might be that 
you need a coordinator who deals with this who could make sure 
that resolution could be sent to Members of Congress just as a 
start.
    Also, I am wondering about someone who used to belong to 
the National Conference of State Legislatures, it seems to me 
this could be a pretty good vehicle also to obtain support, to 
explain the situation. Many people just aren't--they aren't 
interested because they don't--it's not on their radar screen 
because they have too many issues. But if you could bring it to 
their attention, there could be some effort to spread the word. 
I understand the Council is a member of the National Conference 
of State legislatures, too. So you've got the mayors, the 
counties, the States. You could be doing a great--and you've 
got also Mr. Browne. You could be--you really could be 
spreading the word with a concerted effort that is focused on 
that.
    I'd like to ask all of you who would like to comment on the 
feasibility of doing that what your opinions are on what more 
could be done for coordination and awareness to muster up 
support.
    Ms. Cropp. I think you're on target. I think we should use 
every opportunity that is available for us to do that, 
particularly in educating people from across the country.
    The statistics that I gave in my testimony shows that many 
citizens throughout the United States are totally unaware that 
the citizens in the District of Columbia are disenfranchised. 
When you ask those same citizens whether or not they should 
have voting rights they very clearly say yes. To the extent 
that we can get that type of support and that level of support 
from around the country, I think it then brings bearing right 
back here at this level where the citizens can talk to their 
elected representatives about supporting the issue.
    We are in the District in the process of coming together 
and looking at a way and an approach for us to deal with it 
through different committees, whether it's D.C. Vote, whether 
or not it is our Congresswoman, the Mayor, Walter Smith. Some 
of us who have been meeting and looking at ways in which we can 
try to spread the word, and I think we should take every 
opportunity, whether it's the League of Cities, the Conference 
of Mayors or the national State legislature or the speaker--
Conference on Speakers, that we ought to use all of these 
opportunities to gather support for voting rights in the 
District of Columbia.
    Mrs. Morella. But, again, you may want to have a point 
person or somebody who was involved in doing some of that 
coordinating to report back.
    Let me just go through the rest of the panel and see what 
comments you would like to make.
    Mr. Browne, would you like to comment on what more can be 
done for awareness?
    Listen. You keep hopping around like that, and you will be 
able to get the support of three quarters of the States for a 
constitutional amendment.
    Is there something more that you think should be done, sir?
    Mr. Browne. No. No, thank you.
    Mrs. Morella. Ms. Werronen, I'm curious--and I probably 
should know this, too--does the National Republican Committee--
do they have any view on this?
    Ms. Werronen. No. No, they don't. But, actually, 
Representative Browne and I were meeting recently to see ways 
that we could be helpful, and he has agreed to come before our 
committee and explain all of--what he has been doing. And we're 
hopeful, because there are some members that have a deep 
interest in this, that they may be able to provide some support 
to him and nationally and may be able to again either accompany 
him on some of his trips or send letters of support. But we'd 
like to be part of it.
    Mrs. Morella. That's great. That's very good. So it's 
going----
    Ms. Cropp. Madam Chair.
    Mrs. Morella. Yes.
    Ms. Cropp. You know, I believe that we are forbidden to 
spend locally raised tax dollars.
    Mrs. Morella. You are.
    Ms. Cropp. That's a good place to start; and if we could 
spend some of our tax dollars on educating citizens from across 
the country, that would be very helpful.
    Mrs. Morella. And it may be you demonstrate on your own 
time the kind of leadership that's necessary and you've got it 
picked up by other groups that you see here, Ms. Werronen; and 
I know Mr. Peck is going to comment on what the business 
community is doing.
    Mr. Peck. I was going to say one opportunity that we have 
is that the Board of Trade markets the Washington region across 
the country, and one of the things--I don't want to go crabbing 
to anybody that 575,000 or whatever of our citizens are 
disenfranchised in the Congress, but there is an opportunity to 
talk to people in other Chambers of Commerce, in other business 
markets about the District.
    One of the things we've not said so far is that the change 
in the way the country perceives the District of Columbia and 
the Washington region is because the government is better 
managed, because the fiscal situation is cleared up, makes a 
difference. It's hard even though, as some of the polls have 
asked, if your city were mismanaged, as many other cities have 
been over the years, do you think the Federal Government should 
come in and wipe--take over your functions? You know, people 
always say, well, no; and of course we've seen that it can 
happen here.
    By the same token, neither should any mismanagement of the 
District change the way people think about voting rights. In 
our country we believe that self-government means you try to do 
the best you can. Sometimes you slip up, but that doesn't mean 
we take your voting rights away. But I do think we should 
acknowledge that the change in the way people think about the 
District, the way it looks, have made a difference and give us 
a new opportunity to go around and ask for full enfranchisement 
of the District's citizens; and I think we can help do that.
    Mrs. Morella. Your membership has within it people who 
represent groups that have affiliates throughout the country. I 
mean, it's a very high-powered group there, so they could be 
great conduits at various meetings if that subject were to be 
brought up.
    Mr. Peck. And we, too, are nonpartisan--or bipartisan, I 
should say. We do have political action committees, and we 
support candidates from both parties.
    Mrs. Morella. Mr. Smith, you've done a great job; and I 
appreciate your testimony plus all the work you've done. Would 
you like to comment?
    Mr. Smith. I do. I want to add just one other thought 
that's related to what you're talking about.
    As we've said in the meetings that Congresswoman Norton has 
begun to call as groups have come together, national groups and 
local groups, the effort to coordinate what we're doing, which 
was the word you used, I think is key.
    The other area that I think may be key to our effort, to 
pick up a on a point that Linda Cropp made, is a public 
education campaign. We have to do more about that. The country 
is at the moment unaware of the fact that we don't have voting 
representation; and when they learn that we don't have voting 
representation, they strongly support our having it.
    I think we need to be thinking more creatively about what I 
would call a media PR kind of campaign to get stories out there 
through newspapers, magazines, broadcasts, to get the word out 
there in certain targeted markets as well as nationally. 
Because I do believe, once more people understand this issue, 
we're going to have a much better chance of ultimately 
achieving the result that everyone here today is saying we're 
entitled to achieve.
    Mrs. Morella. I agree with you; and I agree with what Mr. 
Peck said, too, is that people are going to look at the way the 
District of Columbia is operating as they say, yes, of course 
they should have voting representation. I now defer to Ms. 
Norton.
    Ms. Norton. Thank you very much, Madam Chair. Ms. Werronen, 
first let me thank you, simply thank you, for your visibility 
on voting rights and your hard work on voting rights. We had a 
lobby day. A huge number of people showed up, and I didn't know 
who you were. But somebody said to me, guess who's there, the 
Chair of the Republican Party of the District of Columbia, Ms. 
Werronen.
    I didn't make a big deal of the fact that she had decided 
to come. She came to the lobby day overflowing with people 
where it was very easy to get lost in the crowd and simply sat 
there, waiting for the coalition to tell people where to go and 
how to lobby; and I just think it's very important to take note 
of your important work. You yourself testified quite 
justifiably to the long-time commitment of our local 
Republicans and even national Republicans, until recently, to 
voting rights for the District of Columbia. I am aware of the 
work that was done at the last convention to try to encourage 
people in the party to understand our particular situation.
    We were disappointed that voting rights was taken out of 
the platform of the Republican Party after having been in there 
for a very long time. We didn't know whether it had to do with 
the state of the District of Columbia, because the District of 
Columbia went into a state of disrepair at one point. It seemed 
to us unusual that, having supported voting rights, the party 
would simply take it out. We know that there were at least some 
attempts to get it back in.
    Could I ask you if you think that it is possible once again 
to get the national party to take the position that--at least 
the position that you have taken in your testimony and if you 
would be willing to try to do that at some appropriate time, 
including your next convention?
    Ms. Werronen. Right. Absolutely. I am not really clear 
exactly myself what happened at our convention in 2000. I do 
know that there had been some, I guess, early drafts around 
that had something in it, and somehow or other it wasn't in the 
final draft. I was not a member of the platform committee and 
so have no firsthand knowledge of exactly what that was all 
about. But certainly, as chairman of this committee, I will 
play an important role in our next convention as a delegate, I 
hope, and certainly would look forward to at least putting 
forth my best effort to get this in.
    Ms. Norton. Thank you very much.
    You say in your testimony, as an important first step we 
support the option of floor voting rights for the House of 
Representatives; and I can understand that position. There are 
a number of other Washingtonians who have that position. In a 
real sense the District has often gone in one step to the next 
step, although I think the position is--of most citizens is 
that we should have full representation.
    What I'd like to know--I hear different versions of what 
the position of the D.C. Republican Party is. Does the D.C. 
Republican Party support full and equal voting rights with 
ultimately the same representation in the Senate and the House 
and this position represents a step moving in that direction, 
or would you limit it only to the House of Representatives?
    Ms. Werronen. No. My statement is where I feel strongly 
that where our committee is today we're where the full 
committee is today, and so I am very comfortable in making a 
very strong stand as I have on full voting rights for our 
representative in the House. I look at the next step as a first 
step to the Congress because, as I've said, it's a unique 
situation and we have found--within our committee we have found 
just within personal discussion that when you go beyond that 
then immediately there are constitutional questions, there are 
the legal questions, there are the issues of full statehood or 
not full statehood; and it seems that things get lost and 
individuals that have one view go that way and individuals go 
another way.
    I think that I guess as a practical person you take the 
first step that's achievable, let's do that, OK, then let's 
move on and see how we--we take that second step, and maybe it 
is that the Congress, whether they would pull together--there's 
never been really a congressional--special congressional 
committee on this issue.
    You know, they could perhaps review from the constitutional 
scholars, from the Library of Congress, from citizens in the 
District and from the proper, I guess, legal authorities of 
what the next step should be. Indeed, if--there are just so 
many different ways of doing it, and it seems that when we've 
tried as a leader of an organization to do it, you get so far. 
Then there are so many different views that you don't have that 
final consensus on the exact way to proceed, and that's why I 
asked the Congress to--we are a unique Federal city--to look at 
us, knowing that we should have full voting rights and how 
exactly that can be achieved.
    I believe the Congress can do it, but whether or not after 
the Congress does it you need to have some sort of 
constitutional amendment, I think these are questions that 
others may have better answers. But I think that we need to 
take the first step and solidify it and then move on.
    Ms. Norton. Then are you suggesting that if there were a--
if we could put aside the constitutional question with a 
constitutional amendment of the kind the Republican Party 
nationally and locally supported before with a constitutional 
amendment for voting rights in the House and voting rights in 
the Senate, that would solve that question for you because 
there would no longer be a constitutional issue?
    Ms. Werronen. Well, you get into the voting rights in the 
Senate. Then does that mean we're going to take the step of 
wanting to be a State and----
    Ms. Norton. What we would----
    Ms. Werronen [continuing]. That's another question.
    Ms. Norton. I want to confine this question to the 1978 
voting rights amendment which was supported by two-thirds of 
the House and the Senate, including many Republican Senators. 
Of course, we never could have gotten to the two-thirds in 
either House otherwise, where, by constitutional amendment at 
least, it looks like there was fairly much of a consensus in 
the House and the Senate that the District should have two 
Senators and a Representative. Would you support a 
constitutional amendment to that effect?
    Ms. Werronen. Speaking on behalf of my committee, I'd have 
to bring it to the committee for a vote before I can put forth 
a position from them.
    Ms. Norton. We certainly appreciate the position you have 
put forward and the efforts you have made and urge you to 
continue to press that at least where you are and to press it 
further to bring you where I think most residents are. I think 
if you were to take a poll of local Republicans, you would 
probably find they'd want to have equal representation in the 
House and the Senate.
    I'd like to move on to ask Mr. Peck a question, because he 
has had experience not only as a business person but in the 
Senate. I think there may be some sense that we want to have 
Senators just because everybody else does and, you know, it's 
kind of nice to have Senators.
    If the truth be told, the House, which was always a 
people's body, has long given delegates virtually every right 
anybody else had. I mean, I sat on a committee that reorganized 
the whole House, and I am not even a Member of the House, when 
the Democrats were in power. I can do virtually anything here, 
you know, except that final vote. That's a terrible insult to 
the people of the District of Columbia. I can't with a straight 
face say I can't operate in here without a vote. I obviously 
could operate better with a vote.
    On the other hand, when the same matter comes up in the 
Senate, I have to do somersaults and worse than that. I go over 
to the Senate often to get things done in the Senate that I 
don't even initiate or couldn't initiate in the House.
    I wonder if Mr. Peck would lay out how a Senator can short-
circuit the process to get things done for her constituents 
that cannot--that nobody in the House could possibly do? You 
can tell the secret's in there because Senator Moynihan is 
gone----
    Mr. Peck. You know, you make a couple of good points. Just 
by way of laying background, there are, of course, as you know, 
no nonvoting delegates in the Senate, so it's a tradition that 
the Senate doesn't have.
    Second, I think it's intriguing. I did work for Senator 
Moynihan for 6\1/2\ years; and he would, as would happen with 
other New York Senators, too, would kind of unofficially be 
regarded as the Senator from Puerto Rico at a time when there 
was and still is a very large Puerto Rican population which has 
a delegate over here but otherwise no representation in the 
Senate.
    I'd have to say it's not unrelated to the fact that there 
were certain tax breaks for pharmaceutical manufacturing in 
Puerto Rico which were important to certain interests in New 
York, but those kind of things happened. I think it is 
clearly----
    Ms. Norton. That's a very good example. That is a very good 
example. Puerto Rico, they had a delegate here. There was no 
way in which that delegate could get through the Ways and Means 
to have gotten that and retained that by himself. Go ahead.
    Mr. Peck. But in the Senate, you know, I think we ought to 
recognize the location of the District itself came out of 
something that had to do with disputes between the States about 
assumption of the debt in the Revolutionary War, and so the 
southern States agreed to have--agreed to assume the debts 
which had largely been incurred by the northern States and then 
said, OK, but the capital is not going to be there in New York 
or Philadelphia either. It's going to be down more our way. And 
I think that the District came out as a result.
    I think that in the Senate clearly what can happen, because 
it represents States and not so much people, and you can be a 
small State like Rhode Island or Montana by population and 
still have two Senators, Senators have certain rights to make 
sure things don't happen.
    As we all know, the Senate being the saucer that cools off 
the hot coffee that comes from the House, as somebody said in 
those Federalist debates, Senators can do things like put a 
hold on legislation. We found that you can find that things 
that would go through otherwise could suddenly be stopped by a 
hold which may or may not ever be made public. Senators can 
stand on the floor and if they don't get something for their 
State simply stop it by objecting to proceedings, and it's very 
difficult to overwhelm that as you can more in the House by 
votes.
    So those procedural things do make a difference, and I 
think you find some--it would be somewhat difficult for a 
representative to--even with a voting right in the House to get 
their things through the Senate because you wouldn't have that 
opportunity to influence things over there.
    So I think--you know, it's another reason why it's 
important to have the vote on both sides. But I will say it is 
also a problem that people in the Senate have not gotten used 
to seeing representatives from those parts of the dominion of 
the United States that don't--that aren't formerly States, and 
it does--but it does raise the issue that Ms. Werronen cites 
that, as soon as you get Senators, people say, does that mean 
you're a State?
    But it's a--you know, I have to just say again on the part 
of the Board of Trade we think the District should have 
representation on both sides.
    Ms. Norton. Well, the notion of whether people think you're 
a State or not would be cleared up by the fact that the charter 
would have remained in place until we got rid of the charter. 
Nobody would mistake us for a State as long as that charter 
gives the Congress of the United States the power to have our 
budget come here and the rest. That's what this charter does; 
and voting rights amendment would not change that, 
unfortunately, and doesn't seek to do so.
    Indeed, you've raised a very important point, because we 
would, in fact--which is why I have supported statehood, this 
anomaly would remain in place. You'd have Senators already, all 
right, you would have a voting representative, all right, but 
here our House and--I am sorry--our own legislature would have 
to send over its budget.
    I must say, however, that the fact that you had two 
Senators would mean when your budget came to the Senate of the 
United States it would be nothing but a pass through. Because 
the Senator from the District of Columbia would get up and say, 
all in favor? And you would find that people on both sides of 
the aisle as a matter of what is called senatorial courtesy 
would not touch your budget. So even without the rights that we 
would still continue to work for, having Senators would do for 
us what House Members cannot do in that regard.
    Mr. Peck, your notion about holds and objections to 
proceedings have been so important to the District of Columbia, 
if we did not have allies there who would help us in this 
regard, and of course we can't do that nearly as often as we 
could if we had Senators.
    Finally, let me say that you talked about the extraordinary 
tax breaks that the citizens of Puerto Rico enjoy. The tax 
breaks that I've been able to get from the District of 
Columbia, the $5,000 homebuyer tax break, the D.C.-only 
business tax breaks not only didn't start here--I worked 
exclusively with Senators, many of them Republican Senators, by 
the way. It was bipartisan, but the Senate was controlled by 
Republicans, and I worked especially with Senator Lott who has 
been wonderfully helpful on all of our tax breaks. Senator 
Lieberman was helpful as well.
    But the point is, those would not go through some committee 
process in which they say all for or against D.C. having tax 
breaks that are available only in the District of Columbia 
raise your hand. They were put in there after the Senators and 
I decided which tax breaks would be most helpful to the 
District of Columbia. Then with them already in the Senate 
bill, we negotiated them into the House bill.
    The irony is that having a House Member meant nothing for 
what has turned out to be one of the most important bills 
passed in recent history in the District of Columbia. And 
working only with the Senate--if working with the Senate could 
have that effect, obviously having Senators could have an even 
greater effect.
    Thank you very much. I have no more questions.
    Mrs. Morella. I am now pleased to recognize the gentlewoman 
from California, Ms. Watson, who has joined us for any 
questions or comments you would like to make.
    Ms. Watson. Thank you, Madam Chair. It's just a pleasure to 
be here and to hear the discussion about the voting 
representation in Congress.
    I have followed this over the decades, and I am one of the 
ones that supports statehood for the District of Columbia. But 
I think first things first. If we could give the voting right 
to the representative, then they could be a full participant. 
There is something missing in this new millennium when we have 
the Nation's seat of power not having the kind of voting 
representation--and it brings that home to me even stronger 
after September 11th and the kinds of policies that needed to 
be made.
    To not have a voice, a voting voice here is not full 
democracy. So I am hoping that there's a tremendous chance to 
get this legislation passed. I do hope that the gentlewoman who 
was speaking will go back and see that we get the power behind 
this movement; and I hope eventually, Representative Norton, 
that we can see statehood for the District. I think that will 
complete our infrastructure of democracy.
    So I am just very pleased to be part of this committee and 
part of the discussion. Thank you.
    Mrs. Morella. Thank you very much for your support and 
commitment.
    Mr. Boyd, I am not going to let you off the hook totally. 
We haven't asked you any questions yet, but I am curious about 
how many Federal capitals are there and why did you choose the 
10 that you have used in your study?
    Mr. Boyd. I can't respond to how many total Federal 
capitals there are. We chose the 10 because----
    Mrs. Morella. Can you move over the mic closer?
    Mr. Boyd. Sure.
    Mrs. Morella. That's great.
    Mr. Boyd. The 10 we chose, we want--the language in the 
conference report talked about comparable cities, so we looked 
at global cities or cities that are international in statute; 
and that's why we selected London, Paris and Rome. We also 
worked with the subcommittee's staff on the House side of the 
District of Columbia's appropriations and working with them we 
came up with a global cities. We also looked at cities that 
were Federal systems and so we selected eight of those.
    Finally, we looked at--we found a little bit more, and we 
looked at capitals that were Federal districts or territories. 
And, again, that was a collaboration with the subcommittee's 
staff on the House side, on Appropriations.
    Mrs. Morella. So you're not sure how many other capitals 
there are in Federal districts?
    Mr. Boyd. I don't have it off the top of my head, but I'd 
be happy----
    Mrs. Morella. I am just curious about whether or not those 
citizens in those capitals vote in the national legislatures. I 
see a list here that was just handed to me by Mr. Smith. D.C. 
Vote, on their Website, Coalition for Representation in 
Congress Education Group, have listed nations in which 
residents of the capital city have representation in the 
national legislature equal to what is enjoyed by their fellow 
citizens. I don't know that it's been authenticated, but there 
are four lists of single-spaced countries where they do have 
residents of the capital city who have voting representation.
    It's kind of interesting. Have the residents of the 
national capitals that you've looked at always had 
representation in the national legislature or has the right 
been recently given? Is this a new phenomenon generating 
momentum or support?
    Mr. Boyd. By and large, most of them that we looked at were 
constitutionally given, and they are longstanding. There are a 
couple--most notably one comes to mind, and that was Canberra 
where there was a Federal district created or a Federal 
territory created, and the rights of the citizens to vote in 
the national legislature was given at that time.
    Mrs. Morella. It's interesting because in the case of 
Canberra, two citizens served 3 years instead of the customary 
6 years. What's the rationale for that lesser period of time?
    Mr. Boyd. It principally has to do with the fear of 
political concentration in the capital by a particular party, 
and what they do is--it's a stagnated 3-year term. They are 
elected--a group of Senators are elected at the same time as 
other Senators from Australian States, and so it's stagnated.
    Mrs. Morella. Sounds very much like the problem we would 
have on the House side trying to get 4-year terms for Members 
of the House where there are 6-year terms for Members of the 
Senate in terms of that time period. But that's another issue.
    I am going to switch now to Chairwoman Cropp and Mayor 
Williams. I am just curious about what the fiscal and economic 
impact to the District of Columbia would be if residents were 
exempted from Federal income tax. Would that not mean that 
District residents would no longer have the credit for the 
Federal tax that is paid if they're not paying Federal income 
tax?
    Ms. Cropp. If I understand your question, we pay over $2 
billion annually in Federal taxes. So the District would not 
have to--the citizens would not have to pay that. But it would 
not be unlike what is occurring now in Puerto Rico, Guam, 
American Samoa. They have a nonvoting delegate as we, but they 
do not have to pay Federal taxes. So it seems that until such 
time as the District gets full voting rights that we should not 
have to pay taxes.
    Some have raised the issue, would that then say that the 
District is not prepared to get voting rights? And I would just 
like to submit to you that the last two States who entered the 
Union, Alaska and Hawaii, did not pay Federal taxes prior to 
coming into the Union, even as a full State. So I don't think 
that would negate it at all.
    Mrs. Morella. Mayor Williams.
    Mayor Williams. For my part, if the District were relieved 
of Federal income tax burden, I would use that relief to, one, 
move the District--and we could then be able to do that--move 
the District squarely toward full competitiveness with Maryland 
and Virginia and the rest of the States to be able to compete 
on a level playing field in terms of overall taxes. In other 
words, I wouldn't take that tax relief and turn it into a 
District tax burden and say, ah-ha, here's $2 billion we can 
now start taxing. I think no one would do that.
    The second thing we would do--and this relates to our push 
for Federal contribution--is some part of that looked to see 
that we're meeting our longstanding, enduring responsibilities 
that we have as a State for national infrastructure, for 
education and the like and to see that we meet them in some 
way. But I think that, you know, what it would do, it would do 
in an economic sense what we're trying to do in a political 
sense, and that is create a level playing field.
    But, again, I think the best way to do this is through full 
political representation. Because if we had full political 
representation we'd be able to create that level playing field 
in terms of taxation, regulation, and create the kind of 
infrastructure and climate for investment that people expect in 
terms of transportation needs, education needs and the like.
    Mrs. Morella. Do you have any comment on that, Mr. Peck, 
before I defer to Ms. Norton, on what the impact would be?
    Mr. Peck. I don't know how to answer that. As a 
representative of the business community, if you can find a way 
to lower our taxes, we'll probably take it and run. But, to be 
serious, I do think that there's a fundamental fairness issue 
here; and I think that's what--that's the thing that we are 
most concerned about. I think that the District has shown a lot 
of fiscal responsibility in the last couple of years, and I 
think this would only encourage it.
    To state it a different way, we in America go on the 
assumption that if you give the people the right to vote they 
will tax themselves fairly, they will spend the money fairly. 
But that those who don't vote shouldn't have to put up either, 
and I think that's fundamentally what we are saying.
    I will say the one thing I'd like to echo, mostly from the 
Mayor's point of view, is that we, too, have been very 
concerned about the level tax playing field within our region. 
I know that Maryland and Virginia and the District all closely 
watch each others' tax rates so that they don't drive 
businesses or residents in and out based on those tax rates, 
and I think that's always something for us to look at here.
    Ms. Cropp. Madam Chair, I think the other issue that we 
really have to look at when we pay the more than $2 billion in 
taxes is the District of Columbia, by nature of how it was 
created, we have some very serious structural imbalances in the 
District. We pay the taxes. However, we cannot tax our income 
at its source.
    More than 50 percent of the folks who work for the District 
of Columbia government--I am not talking about Federal 
Government, not talking about the private sector, but more than 
50 percent of the people who work for the District of Columbia 
government alone lives outside the city.
    The District is very unique in that we use our police force 
quite a bit, probably to a greater extent than many other 
places, for Federal purposes. Our Fire Department helps to 
support the Federal purposes. So that, while we pay the taxes, 
we have some very serious structural imbalances that sort of 
handicap us as a city.
    We have a majority of our land that is not taxable either 
through Federal presence or through nonprofits or a university 
town, for many reasons. So if we did not have to deal with the 
$2 billion, I think that there would be a very positive way in 
which the District would be able to utilize those dollars----
    Mrs. Morella. We have a GAO report that will be coming to 
us looking at the relationship between the District of Columbia 
and other States, too, to look at what that kind of structural 
balance may be.
    I am now going to recognize the ranking member. Thank you.
    Ms. Norton. Before people get further into this fairy tale 
about tax refunds from the Federal Government, I think I ought 
to put on the record what I think all of you and most residents 
are aware of. At the time that the 107th Congress began, there 
was a Republican House and a Republican Senate, with no chance 
of moving a voting rights bill forward in the House or the 
Senate. The primary issue at the beginning of the 107th 
Congress, and I must say as the 107th Congress closes, remains 
the primary issue for Republicans is tax cuts.
    In light of the fact that I could only introduce a bill but 
not move a bill, it seems that because the House was not 
controlled by a party that would allow the movement of a bill, 
it seems that we ought to take advantage of the fact that the 
Republicans who control the House and the Senate regarded tax 
cuts as the primary issue facing the American people. In that 
regard it seemed an important opportunity to educate the 
American people and, as it turned out, Members of the House and 
Senate who tell me they did not know that we were the only 
Americans who pay taxes without representation in the House. So 
it served a purpose in the House and, of course, in the 
country. We find wholesalely people know. So it has helped--the 
bill has helped to get that message out.
    Then, of course, we have had a change of party by Senator 
Jeffords and for the first time it became possible to move the 
bill in the Senate. We've had the hearing and Senator Jeffords 
is prepared to move the bill forward before the end of this 
session.
    Let me just make clear, since we're talking about what you 
would do if you got your taxes back, is it clear--I would ask 
the Mayor and the Council Chair, is it clear to you that what 
the people of the District of Columbia seek is their voting 
rights rather than their taxes back?
    Mayor Williams. Absolutely clear. I was just answering the 
question----
    Ms. Norton. No. I just want the record to show where you 
think the residents of the District of Columbia stand.
    Mayor Williams. As I was pointing out, I think if we had 
the representation we could achieve the same purpose and have 
the self-determination and representation so----
    Ms. Cropp. There doesn't seem to be any doubt that if the 
citizens of the District of Columbia had a choice they would 
like to be able to have a say at how their taxes are spent.
    Ms. Norton. Thank you very much; and thank you very much, 
Madam Chair. I thank you as well that, despite the fact that 
there are some of your party in the House who perhaps do not 
support our voting rights, you have been very gracious in 
granting this hearing to me and to the elected officials and 
the residents of the District of Columbia. We greatly 
appreciate your great fairness in doing so.
    Mrs. Morella. I want to thank you very much, Congresswoman 
Norton.
    Ms. Watson, I think I've finish my questioning----
    Ms. Watson. I just have one fundamental question to raise, 
and if anyone's out there in the opposition maybe they can 
respond. But what is the today argument against allowing 
representation by voting in the House of Representatives and in 
the Senate, in Congress? Is there a modern-day argument that's 
compelling?
    Mrs. Morella. Not with this group.
    Ms. Watson. Very good. I think that we can make the 
argument in support, and I hope that we will continue, Madam 
Chair, and for the sponsor of the bill to have these 
discussions. I don't know if there's going to be another 
hearing, because I'd like to add to the list of support 
statements, statements from people like yourself, Congresswoman 
Morella, and the lady that was speaking when I came in--I 
guess, Ms. Werronen?
    Ms. Werronen. Werronen.
    Ms. Watson. Werronen. What I heard sounded very good to me, 
and I think the best argument is that in today's world in the 
United States we need to have representation when our tax 
dollars are spent; and, believe me, the way we're spending them 
now we need to hear from those who represent all Americans. So 
if we can gather up these statements and some way get them put 
out publicly and keep this battle going I think there's a light 
at the end of the tunnel even if it is a search party with a 
lantern, but let's keep trying.
    Thank you very much, and I am going to have to leave, Madam 
Chairwoman.
    Mrs. Morella. Thank you, Ms. Watson.
    I think what we have to determine with this hearing, and I 
think you have all done a great job of being here responding to 
questions--not only responding to questions but the experience 
that you brought to the table is one that we deeply appreciate 
the commitment that you've all shown.
    I think it's ironic that a representative of the District 
of Columbia in Congress has only once from 1993 to 1995, a 2-
year period, had the opportunity even to vote in the Committee 
of the Whole. So I think we need to point out that this is the 
time, the momentum is now there more than I have seen before, 
genuine momentum, and perhaps with some coordination we can get 
the word out.
    Again, my thanks to all of you. I said that there would be 
a period of 5 days where others can get testimony into the 
written record. And my thanks to Congresswoman Norton for 
inspiring me to have this hearing on the House side. We'll move 
from there.
    I want to recognize the minority staff, Jean Gosa, Cheryl 
Williams; majority staff, Russell Smith, Matthew Batt, Shalley 
Kim, Robert White and Heea Vazirani-Fales.
    The subcommittee hearing is now adjourned. Thank you.
    [Whereupon, at 2:20 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5725.061


</pre></body></html>
